                      Department of the Interior
                      Office of Inspector General



     Partnership
    Construction
Process a Positive
        Step, But
   Improvements
       Needed in
  Implementation




         Evaluation of Partnership Construction Process
                                      National Park Service


      Report No. W-EV-NPS-0013-2006            March 2007
Description of Cover Photos – Clockwise from Top Right.

    View of Golden Gate Bridge from “Trails Forever” at the Golden Gate National
     Recreation Area.
    View of future site of Harbor Park Pavilion, Boston Harbor Islands National Recreation
     Area.
    View of “Trails Forever” at the Golden Gate National Recreation Area.

Photos courtesy of Office of Inspector General (OIG) Evaluator Katelyn DeMello
                     United States Department of the Interior

                                       Office of Inspector General
                                            Western Region
                                                Federal Building
                                         2800 Cottage Way, Suite E-2712
                                            Sacramento, California 95825


                                                                            March 22, 2007
                                                                                      7430

Memorandum

To:            Assistant Secretary for Fish and Wildlife and Parks

From:          Michael P. Colombo
               Regional Audit Manager

Subject:       Final Report – Evaluation of Partnership Construction Process, National
               Park Service (Report No. W-EV-NPS-0013-2006)

       Our objective was to evaluate whether the National Park Service’s (NPS)
Partnership Construction Process (Process) was working as intended and to identify areas
for improvement. NPS established the Process during fiscal years 2004 and 2005 to
address Congressional concerns over the accountability of expensive park projects
constructed through partnerships with private entities or with other federal, state, or local
governmental agencies. Because of its recent establishment, we evaluated Process
implementation and did not conduct an in-depth evaluation of individual partnership
construction projects as no project has been through the entire Process. Our evaluation of
the Process revealed opportunities for NPS to take proactive steps in improving its
implementation.

        In fact, we found that NPS has not fully implemented the Process. For example,
NPS has not yet defined what constitutes a partnership or developed a universe of
partnership construction projects to ensure that all projects are identified, tracked, and
reported to senior management and, as appropriate, to Congress. NPS also has not
consistently prepared accurate and reliable operation and maintenance (O&M) cost
estimates for partnership construction projects. We identified six suggested actions,
which, if taken, should improve the accountability of partnership construction projects.
The objective, scope, methodology, and prior audit coverage of our evaluation are
detailed in Appendix 1. The sites visited or contacted are shown in Appendix 2.

                   Partnership Construction Process
      NPS embraces the use of partnerships as a primary way of doing business and
accomplishing its core mission, which is to preserve, unimpaired, the natural and cultural
resources of the national park system and to extend the benefits of conservation and
outdoor recreation for current and future generations. Congress, however, became
concerned about the estimated $300 million cost to the government of partnership
construction projects. In fiscal year 2004, Congress expressed concerns over the
emergence of large, expensive NPS partnership construction projects being developed
without Congressional approval. In fiscal year 2006, the Chairman of the House
Appropriations Subcommittee on Interior, Environment, and Related Agencies
questioned whether NPS was taking into account the full costs for partnership
construction projects being considered. Congress has specifically expressed concern as
to whether these projects would inevitably impact park O&M activities.

        Former NPS Director Mainella stated that NPS had developed a new policy for
the partnership program that would address Congressional concerns. The policy was
provided to Congress in a February 2005 status report on partnership construction
projects. In the report, NPS described the five-phase Process to manage, monitor, and
approve partnership construction projects with a fundraising component and identified
two categories of projects: (1) private-public, defined as those projects in which the non-
NPS partner was a nonprofit engaged in a fundraising effort, and (2) public-public,
defined as those projects in which the non-NPS partner was a federal, state, or local
government agency.

         The Process guides partnership construction projects from initiation through
project definition, agreement, development, and implementation, as depicted in Figure 1.
The Process is incorporated in the NPS Director’s Order 21 on Donations and
Fundraising and predominately includes partnership construction projects over
$1 million. These partnership construction projects are presented twice to the
Development Advisory Board (Board), which reviews and recommends whether a project
should go forward or needs additional analysis. The NPS Director approves all
partnership construction projects over $1 million; projects over $5 million must also be
approved by Congress twice during their development. The complete Process is
illustrated in Appendix 3.


 Time
 Progression
 (in Years)  .5                 1.0               1.75                      3.75                    5.75

   Initial         Definition         Agreement            Development             Implementation


                  Board    Congressional   Congressional           Board
                  Review   Consultation    Approval                Review
                                                                                          Figure 1
                                                                  Partnership Construction Process




                                                   2
      Improvements Needed in Process Implementation
       While the Process represents a positive step toward addressing Congressional
concerns over the accountability of expensive partnership construction projects, it has not
been fully implemented. We identified the need for the following improvements:

    Establish Universe of Partnership Construction Projects

         NPS has neither defined what constitutes a “partnership” nor established a
universe of partnership construction projects. Thus, there is no agreement as to what type
of partnership construction projects should be included in the Process and no assurance
that all projects are being included. Specifically, there is inconsistency as to whether
public-public partnerships should be included in the Process. In May 2004, both the
Assistant Secretary for Policy, Management and Budget and the NPS Director informed
the House Interior Appropriations Committee that NPS needed “to formalize and better
manage the review and approval requirements for public-public partnership construction
projects.” The two officials also stated that review and guidance on these projects were
to be completed by September 30, 2004. This has not yet occurred.

        In its February 2005 report to Congress, NPS concluded that “all partnership
construction projects valued at $500,000 or greater must adhere to the Partnership
Construction Process.” However, we found that the two regions visited (the Northeast
Region’s Boston Support Office and the Pacific West Regional Office) lacked criteria as
to which partnership construction projects should be included in the Process. One region
stated that it included any project with a fundraising or funding component, whether
private or public, whereas the other region excluded projects with other federal agencies.
As is apparent from these examples, the NPS position, as reported to Congress, is not
consistently reflected in regional practices. Since any partnership construction project
could develop significant problems, all projects should be included in the Process.

    Assess Future Impact of Partnership Construction Projects

        NPS is currently unable to assess the future impact of partnership construction
projects on its O&M budget because it has not consistently prepared O&M estimates and
those estimates prepared were generally inaccurate and unreliable. We found that for 18
of the partnership construction projects submitted, for which estimates should have been
completed, only 7 were provided. This practice is counter to the NPS staff understanding
that O&M estimates were being included in the project information submitted to the
Board during the development phase of the Process (Figure 1).

        NPS staff told us they are generally responsible for developing in-house O&M
estimates to be submitted to the Board during the planning or conceptual phase of a
project, whereas estimates submitted during the development phase are typically prepared
by architectural and engineering firms. NPS staff also stated that they consult with firms
from the American Institute of Architects and Engineering in preparing cost estimates for
larger projects; however, for smaller projects, most estimates are based on historic costs


                                           3
of similar projects or on the park’s experience. NPS officials stated that O&M cost
estimates are often inconsistent, inaccurate, and lacking in detail.

    Complete Tracking System

        NPS has not fully implemented its project tracking system to ensure that all
partnership construction projects are identified, tracked, and reported to senior
management and, as appropriate, to Congress. We found that not all projects are in the
system and that the level of information provided in the system does not allow
headquarters or regions to quickly determine the status of individual projects. At the time
of our review, the system was not used by all regions.

        Partnership construction projects are tracked through Microsoft Project by an
additional feature known as SharePoint. Microsoft Project software maintains project
data, such as status, description, and schedule of milestones, and the SharePoint feature
acts as an electronic library to record agreements, studies, plans, and other such
documents required by the Process. While this type of tracking of partnership
construction projects has occurred since July 2005, at the time of our review, only half of
the 32 projects identified as the project universe were actually included for tracking. The
documentation available in the SharePoint electronic library for these 16 projects did not
consistently include pertinent information, such as agreements, studies, or plans that had
been completed. NPS attributed these deficiencies to the SharePoint feature being a
work-in-progress and to staff’s lack of time to input project information.

    Streamline Review and Approval Process

        NPS is following review and approval guidelines, but field staff and partner
groups have expressed concerns regarding the time-consuming nature and number of
persons reviewing project documentation at the Washington level. Unlike the Board
portion of the Process, which quickly yields decisions regarding partnership construction
projects, the Agreement phase (Figure 1) can be lengthy because of the number of times
documents go back and forth between parties and the number of persons involved in
reviewing and approving project documentation. To expedite the Agreement phase and
make it more partner-friendly, field staff expressed a need for flexible template
provisions that could be readily adopted; notice of those offices or officials involved in
Process documentation reviews; and the use of concurrent reviews, where possible. We
believe that to help clarify where a partnership construction project is in the review
process, a single contact person at the NPS Washington level could be identified to track
projects being reviewed.

       Field staff and partner groups agree that each partnership construction project and
partnership is unique and that one size does not necessarily fit all. However, NPS staff
expressed the need for guidelines to help determine the level of detail needed in the
various documents to satisfy each Process phase and for better integration and
coordination with partner fundraising efforts. One NPS official suggested that NPS



                                           4
should, on a temporary basis, establish a working group of NPS staff and partners to help
streamline the Process.

    Expand Training on Process

        NPS staff have been trained on the conceptual overview of the Process, but have
not received adequate training on Process procedures or guidance regarding the
documentation necessary to fulfill each phase of the Process. Formal training on the
Process occurs regularly as part of a larger subject matter, such as Director’s Order 21 or
general construction, and is directed towards park superintendents and managers. The
formal training outlines the five phases of the Process and the reasons why the Process
was developed. Informally and at the regional level, information is communicated
through teleconferences between project managers and the Partnership Office in
Washington, D.C.

        After discussions with the regions, and reviewing materials used in the formal
training, we concluded that NPS has made a conscious effort to inform staff of the
Process concept, but could clarify what was needed to document completion of a phase.
Additionally, some regional staff did not appear to know about the tracking system or the
SharePoint electronic library and thus maintained files independently.

                               Suggested Actions
        We suggest that the Assistant Secretary for Fish and Wildlife and Parks take
action to:

   1. Develop guidance as to what constitutes a partnership and establish a universe of
      all partnership construction projects.

   2. Ensure that all future Board submittals contain accurate and detailed O&M cost
      estimates.

   3. Complete entry of all projects in the NPS-developed tracking system for
      partnership construction projects and establish guidelines for the level of
      documentation to be provided for each phase of the project.

   4. Develop standard agreement template(s), where applicable, and identify the
      officials responsible for reviewing and surnaming various types of documents.

   5. Designate a single point-of-contact to track partnership construction projects
      through the Process.

   6. Ensure that staff receives training on Process procedures and guidance on the
      documentation necessary to fulfill each phase of the Process.




                                           5
         The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued. We appreciate the
cooperation shown by NPS and its partners during our review. A response to this report
is not required. However, if you have any questions regarding the report, please call me
at (916) 978-5653.

cc: Director, National Park Service




                                           6
Appendix 1
Objective, Scope, Methodology, and Prior Audit Coverage

Objective, Scope, and Methodology

        The objective of the evaluation was to determine whether the NPS Process was
working as intended and to identify areas for improvement. Specifically, we focused on
the following questions:

   1.   Are projects being appropriately included and tracked?
   2.   Are O&M estimates being prepared?
   3.   Are proposed projects following guidelines outlined in the Process?
   4.   Have the regions been trained in Process implementation?

         We conducted our review from September 2006 to December 2006, at various
sites as shown in Appendix 2. The scope of our review covered fiscal years 2005 and
2006. We conducted our evaluation in accordance with the Quality Standards for
Inspections as put forth by the President’s Council on Integrity and Efficiency.
Accordingly, we included such tests of records and other procedures that were considered
necessary under the circumstances. To accomplish our objective, we conducted the
following activities:

    Reviewed applicable laws, policies, and other criteria.

    Reviewed NPS documents, including financial reports, status reports, agreements
     with partnering organizations, and correspondence relevant to the Process.

    Interviewed NPS officials from program, regional, and park offices and officials
     from partnering organizations.

    Reviewed the Department’s Annual Report on Performance and Accountability
     for fiscal years 2004 and 2005, including information required by the Federal
     Manager’s Financial Integrity Act. We determined that none of the weaknesses
     reported by the Department directly related to our objective.

    Reviewed the Department’s Strategic Plan and other documents prepared in
     accordance with the Government Performance and Results Act. There were no
     strategic goals directly related to the Process.




                                          7
Prior Audit Coverage

        Neither the OIG nor the Government Accountability Office (GAO) has audited
the Process. However, topics related to park operations and partnerships were reviewed
in the following GAO reports:

    March 2006, NPS Major Operations Funding Trends and How Selected Park
     Units Responded to Those Trends for Fiscal Years 2001 through 2005 (GAO No.
     06-431). GAO found that park units relied on volunteers and funding from
     authorized sources, such as nonprofit donations, to accomplish daily operational
     activities. This occurred because daily operation amounts for the operation of the
     National Park System declined in inflation adjusted terms. However, relying on
     such sources for operations that require long-term funding commitments is
     problematic. GAO recommended that NPS revise its policy to allow park units to
     use visitor fee revenues to the extent authorized by law. The Department
     generally agreed with the recommendation.

    May 2004, National Park Service: Better Communication of Roles and
     Responsibilities Is Needed To Strengthen Partnership With the National Park
     Service (GAO No. 04-541). GAO found that the National Park Foundation’s
     (Foundation) efforts to assist NPS were hampered by poor communication and
     documentation problems. GAO recommended that NPS and the Foundation
     identify and document all current and future fundraising agreements and that NPS
     provide a list of individual park project priorities potentially fundable by
     nonprofits. While NPS generally agreed with the recommendations, the
     Foundation did not. Subsequent to the report, Congress directed NPS and the
     Foundation to implement all specific recommendations identified in the GAO
     report.

    July 2003, Park Service: Agency Needs to Better Manage the Increasing Role of
     Nonprofit Partners (GAO No. 03-585). GAO determined that NPS policies
     encouraged reliance on nonprofit organizations and that NPS did not have a
     process for holding local park managers accountable for meeting contribution
     goals from nonprofit organizations. GAO recommended that NPS identify the
     roles and responsibilities of nonprofits in providing visitor services, develop and
     maintain an accurate list of nonprofit groups serving the parks, and require
     nonprofits to report key financial information. The Department did not provide
     comments on the report.




                                         8
Appendix 2
Sites Visited or Contacted


                           Sites
                                                                       Location
                   National Park Service
  Boston Harbor Islands National Recreation Area                 Boston, Massachusetts

  Boston Support Office for the Northeast Region                 Boston, Massachusetts

  Denver Service Center*                                           Denver, Colorado

  Golden Gate National Recreation Area                          San Francisco, California

  National Capital Regional Office*                                Washington, D.C.

  National Partnership Office                                      Washington, D.C.

  Office of Park Planning, Facilities, and Land                    Washington, D.C.

  Pacific West Regional Office                                    Oakland, California

* Denotes site that was contacted but not physically visited.




                                                    9
Appendix 3
Partnership Construction Process Flow Chart




                                        10
11
